CERTIFICATE OF SERVICE
I, Petitioner Henry Paul Richardson, hereby certify that a true and correct copy of the petitioner
'Petition for A Writ of Certiorari, along with Petition Appendix, was mailed on this 1st day of June, 2021,
by placing in the institutional prison mailbox, prepaid postage to be mailed to the following:
cc:/ Clerk's office
for the United States Supreme Court

Isl

This is true and correct statement of events thast occured Pursuant to penalty, 2$ U.S.C 1746.
ISI

id

t

